<html>
<title> - THE ROLE OF FAITH-BASED CHARITIES IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 105-599]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-599


 
     THE ROLE OF FAITH-BASED CHARITIES IN THE DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF
                 GOVERNMENT MANAGEMENT, RESTRUCTURING,
                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 1998

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 49-177 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                       Lynn L. Baker, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                     Michael Rubin, Staff Director
               Laurie Rubenstein, Minority Staff Director
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1

                               WITNESSES
                          Monday, May 18, 1998

Dr. Edward J. Eyring, President and Executive Director, Gospel 
  Rescue Ministries..............................................     3
Hannah M. Hawkins, Founder and Director, Children of Mine Center.     6
Jim Till, Executive Director, Strategies to Elevate People.......     8
Amy Hunt Johnson, Director, Neighborhood Learning Center.........    12
Hon. Dan Coats, a U.S. Senator from the State of Indiana.........    20
April Lassiter, President, The Initiative for Children Foundation    27
Joe Loconte, Deputy Editor, Policy Review Magazine, The Heritage 
  Foundation.....................................................    30

                     Alphabetical List of Witnesses

Coats, Hon. Dan:
    Testimony....................................................    20
Eyring, Dr. Edward:
    Testimony....................................................     3
Hawkins, Hannah M.:
    Testimony....................................................     6
    Prepared statement...........................................    38
Johnson, Amy Hunt:
    Testimony....................................................    12
    Prepared statement...........................................    49
Lassiter, April:
    Testimony....................................................    27
    Prepared statement...........................................    55
Loconte, Joe:
    Testimony....................................................    30
    Prepared statement...........................................    68
Till, Jim:
    Testimony....................................................     8
    Prepared statement...........................................    47

                                APPENDIX

Additional prepared statement submitted for the record from:
    Ms. Kay Granger, a Representative in Congress from the State 
      of Texas, prepared statement...............................    37



     THE ROLE OF FAITH-BASED CHARITIES IN THE DISTRICT OF COLUMBIA

                              ----------                              


                          MONDAY, MAY 18, 1998

                                     U.S. Senate,  
         Oversight of Government Management, Restructuring,
                 and the District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:07 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senator Brownback.
    Staff Present: Michael Rubin, Staff Director; Marie Wheat, 
Deputy Staff Director; and Esmerelda Amos, Chief Clerk.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. Good afternoon. We will call the hearing 
to order. As a matter of fact, if our first panel of witnesses 
would like to go ahead and take their seats at the table, I 
think that would be a good first step for us to make.
    I want to welcome everybody here today. Our hearing is 
going to examine the role of faith-based charity in the 
District of Columbia. I would like to give an especially warm 
welcome to our guests from the various charities throughout the 
DC area who are giving us their precious time and were willing 
to share with us today a little insight into how they serve the 
people of the District.
    Last year, I visited several small charities in my home 
State of Kansas, and what I found were folks on the front 
lines, with open hearts and amazing love, who were living proof 
of the effectiveness of small, local charities. I was 
encouraged to see the success of faith-based ministries in 
responding to the needs of those around them.
    I visited the Topeka Rescue Mission, the Marion Clinic in 
Topeka, and I had previously visited Salvation Army facilities. 
I saw really a broad range of local charities with open arms 
and hearts reaching out and really helping people. A lot of 
times, folks look at these and say, ``It is too small to really 
do anything.'' The beauty of it is there are so many that are 
doing so much and reaching out and touching and helping and 
changing lives. I was very encouraged by that, and that is why 
I wanted to have the same sort of view on DC charities today, 
with a hearing first, and then I hope to get out within the 
next couple of weeks and visit a number of charities in the 
District of Columbia as well and see what things they are 
doing.
    Certainly, we have problems in Washington, DC, in the 
Nation's Capital. There is poverty, drug addiction, crime and 
violence. Seemingly every day, we learn of new atrocities going 
on in the streets and even in our schools in the Nation's 
Capital. But what we often do not read in the paper are the 
stories of the ordinary people, the true heroes of our society, 
who are giving their lives, their hearts, and even their very 
destiny to help the people here in the District of Columbia. We 
want to look at that today.
    The witnesses here today will share how they display 
compassion to the alcoholic and her children, how they 
administer ``tough love'' cloaked in empathy to drug addicts 
and prostitutes. It certainly is not easy work, I can assure 
anyone who is listening or watching; yet these witnesses today 
spend their lives doing this work day in and day out, helping 
people so much and reaching out to them in whatever condition 
they are in.
    Part of the reason why I called this hearing today is that 
I believe we must encourage these charities--not discourage 
them. I want to lift up the good that they do and highlight 
their effectiveness so that others might follow the same 
example.
    I am a Federal legislator, yet I believe the Federal 
Government is sometimes limited, and in many places often is 
limited, in its capacity to solve the problems that plague our 
Nation's Capital and even our Nation as a whole. I do believe 
that the Federal Government can assist in eliminating perverse 
incentives from our inner cities, encourage entrepreneurship 
and charitable giving. At a minimum, the Federal Government 
should not be a barrier to the work of charities.
    As many of you know, I am part of a group of 16 Members 
from the House and 13 from the Senate who have already formed 
the Renewal Alliance. The mission of our group is ``to build a 
partnership between government and community-based, nonprofit 
charities in order to promote real solutions to human 
problems.''
    To me, the Renewal Alliance is all about bringing balance 
to the relationship between the State and the institutions of 
civil society. We promote in the Alliance community renewal, 
economic empowerment and educational opportunities for low-
income families.
    In the next panel, we will hear from Senator Coats, who 
leads the Renewal Alliance, about some of the work that he has 
been doing and what else he feels is possible for us to do in 
the District of Columbia.
    We will begin today by hearing from four local charities, 
and I am delighted that you have all been willing to join us 
today and hopefully receive a bit of recognition for all the 
great work you do, day in and day out, in a very difficult set 
of circumstances.
    First, we will hear from Dr. Ed Eyring, President and 
Executive Director of the Gospel Rescue Ministries of 
Washington, DC Gospel Rescue Ministries helps crack addicts and 
the homeless getting men off drugs and teaching them practical 
skills.
    Next up will be Hannah Hawkins, founder of Children of 
Mine, an after school program providing a hot meal, clothing 
and tutoring to needy children in Anacostia. I am looking 
forward to that testimony as well.
    Next, we will hear from Jim Till, who will speak about the 
STEP program, Strategies to Elevate People, a ministry with 
services ranging from summer day camp for children to adult 
literacy training.
    And finally on this panel, we will hear from Amy Johnson, 
who will share about the Neighborhood Learning Center and their 
tutoring programs.
    I am looking forward to hearing from each of you about how 
you feel your charity has worked, and also, please feel free to 
express any of the needs that you might have, or things that we 
might change in Washington as well.
    I am delighted with all of your work. Mr. Eyring, let us 
hear from you first.

  TESTIMONY OF DR. EDWARD J. EYRING, PRESIDENT AND EXECUTIVE 
               DIRECTOR, GOSPEL RESCUE MINISTRIES

    Dr. Eyring. Thank you, Senator Brownback. Listening to you 
talk, I almost wondered if I needed to bother, but I guess I 
will go ahead.
    Senator Brownback. Yes, I want to hear about what you are 
doing and the obstacles you experience, too.
    Dr. Eyring. Thank you so much for inviting us to come here 
and talk about good news, some of the good things that are 
happening in Washington, DC.
    We believe that the root cause of drug addiction, crime and 
homelessness is often alienation of the individual from 
conventional society, and we believe that Jesus provides the 
most appropriate model for us to follow to see fundamental 
heart changes within the individual.
    I most particularly would like to tell you about what we at 
Gospel Rescue Ministries are doing to model the character of 
Jesus in such a way that the bonds of alienation are broken, 
and lives are transformed.
    Now, if proof of any pudding is in the eating, then the 
proof of what we do should be transformed lives, and I have 
taken the liberty of bringing some of that proof with me.
    The first person I would like to introduce is my wife, Mary 
Jane, who lives with me at Gospel Rescue Ministries and shares 
our lives with the 110 men there--just eight blocks from where 
we are sitting right now.
    Senator Brownback. Yes; I drive by it once in a while.
    Dr. Eyring. Come in; drop in.
    Mary Jane believes that we should model a family, that that 
is the model we should create in our place, basically by caring 
for one another and thinking about one another. Mary Jane 
prayed for 14 years for me to get things straightened out and 
accept Jesus as the best model for our family.
    Most folks pride themselves when they get into the 
centerfold of Playboy, but my wife made the centerfold of The 
Washington Times a couple of weeks ago, and I just thought you 
would like to see her picture.
    Senator Brownback. Congratulations. I like that centerfold 
much better.
    Dr. Eyring. I will leave you a copy.
    I have also asked David Treadwell, who is the director of 
Central Union Mission, our sister faith-based organization here 
in the District, to join us to illustrate that genuine 
collaboration can actually occur between previously competing 
groups. People say, ``You cannot work with them; they are your 
competitors.'' And I am saying that that is not actually true. 
Just last week, for example, David brought men and trucks from 
his mission to our mission to help us move furniture around, 
and in exchange, we gave him some of the furniture, so we both 
profited from that.
    David has brought with him Brian Thompson.
    Senator Brownback. Welcome.
    Dr. Eyring. Brian graduated from Michigan State, fell into 
some of the problems that you have been talking about, and got 
his life together at Central Union Mission.
    I have also invited James Washington, who is probably the 
most famous member of our group, who works here on Capitol 
Hill--as you all know, Senator Coats talks about him quite a 
bit--he made the centerfold, too. Only 12 months ago, James was 
a member of our change Point Ministry, working to overcome the 
effects of drugs and a shattered, dysfunctional family, which 
had left him alienated from society as we know it.
    Just last week, a staff person from Senator Kennedy's 
office told my wife that whenever she is feeling pressured or 
frenzied, just seeing James helps her put things in better 
perspective so she can face the day here on Capitol Hill. Could 
it be that James' attitude and smile embodies the hope in Jesus 
that we all need to persevere?
    We believe in establishing relationships as the preferred 
means of effecting change. After all, Jesus did just that. He 
walked along with his disciples and shared his life with them, 
and they were changed. We at Gospel Rescue Ministries develop 
relationships with our members. We believe that does as much or 
more, fundamentally, to transform lives than a well-crafted and 
executed case management strategy.
    Sure, we do drug testing, but we combine it with life 
lessons. For example, we ask each person before the test if he 
has used. If his answer is ``No,'' and the test says ``Yes,'' 
the discipline that the member has chosen for himself is 10 
times more severe than it would have been if he had been 
truthful. In that way, we build trustworthiness and honesty 
into these transformed lives.
    To illustrate trustworthiness, I have asked Nate Jones, our 
food services coordinator and director of our Zacchaen Ministry 
to join us as well. The Zacchaens prepare our food and teach 
food services to their members.
    Not only is Nate considered a benchmark in the food service 
business around the District, but he has one of the highest 
success rates in putting homeless and previously addicted men 
to work in food services within the District. Yet Nate himself 
fought off the grip of heroin addiction through our Ministry.
    Gospel Rescue Ministries, with its effective record in 
transforming lives of crack cocaine addicts--our reported 
success rate is about 70 percent, as noted by Senator Coats--
has caught the eye of the Department of Justice. Both Attorney 
General Reno and Assistant Attorney General Holder came to our 
neighborhood and transferred publicly a building named the 
Fulton Hotel--nicknamed ``Murder Hotel''--to Gospel Rescue 
Ministries to be restored to its historic beauty and used to 
provide a safe haven for women with drug addiction problems, 
primarily crack cocaine.
    You may not be aware that women and children represent the 
most rapidly growing segment of the population addicted to 
crack cocaine. Our ministry to women will be patterned after 
our model program for men, which is called The Haven.
    We believe that education is essential for successful 
integration into modern American society. And just 
parenthetically, we feel that the idea of ``Work first'' has a 
potential pitfall in providing education afterward. From our 
perspective, we really do believe that people ought to be 
educated first, rather than going to work and trying to pick up 
education secondarily.
    Our School of Tomorrow provides GED training, and so far, 
nearly 50 people have successfully passed the exam in the last 
2 years. Also, we provide training for the commercial driver's 
license. This course is taught by a man named Earl Cotton, who 
successfully transformed his own life at Gospel Rescue 
Ministries, and he can boast that 100 percent of the people, 
both men and women, who have completed his classes have passed 
the tests.
    Hundreds of women and men have taken our computer courses, 
which employ state-of-the-art technology, which I guess is what 
they call 586's and 686's and Windows and those things that I 
do not know much about.
    Our recent program within the school is called WorkNet. 
This is our strategy for welfare-to-work. It is designed to 
effectively equip people to enter the work force. Over the 
years, we have seen dozens find work, mostly in survival jobs, 
as part of our ministry; but this new strategy is designed not 
just to find survival jobs, which usually lead nowhere, but it 
is designed to find entry-level employment in a substantial 
career track, which matches the individual's gifts and dreams 
with what could reasonably be expected to lead to promotion.
    And last but not least, I will tell you about Barnabas 
House. We are just opening this ministry today, as a matter of 
fact, as a transitional house for graduates of our other 
ministries. Many of these men simply cannot go back to the 
environment from which they came.
    Our vision is to transform neighborhoods as well as 
individuals. We dream, for example, of establishing a site for 
cooperative ministry here in the District between many agencies 
to meet the complex needs of a whole neighborhood. I would like 
to cite an example of such a site, which is the McKinley-
Langley-Emory School site in Northeast Washington, just off 
North Capitol Street. It is a place that we could just get so 
excited about. Wouldn't it be exciting to see the whole service 
community working together to see an entire neighborhood 
transformed into the hospitality image of Jesus.
    Thank you again for allowing me to testify here. We look 
forward to hosting you and your staff at Gospel Rescue 
Ministries.
    Senator Brownback. I look forward to going there and seeing 
it. I have visited several in my home State, but I have not 
visited this one, so I look forward to getting there.
    You remind me, too, what someone was telling me the other 
day that prostitutes, criminals, and tax collectors never felt 
uncomfortable around Jesus during his ministry in his time; it 
was only the religious leaders who generally did--some of them, 
not emulating some of the models that he was talking about. And 
when that person mentioned that, I thought, well, that is 
certainly true, isn't it. He just reached out all the time in 
that transcendent love.
    Dr. Eyring. That is right.
    Senator Brownback. Thank you. I look forward to some 
questions in a moment.
    Ms. Hawkins, my staff has briefed me on your program and 
says I need to send my own kids to your program, that you have 
gotten them to where they respond quickly and well, and are 
doing great. I am looking forward to hearing about your program 
and how you do that.

   TESTIMONY OF HANNAH M. HAWKINS,\1\ FOUNDER AND DIRECTOR, 
                    CHILDREN OF MINE CENTER

    Ms. Hawkins. Bless your heart, Senator Brownback.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hawkins appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    My name is Hannah M. Hawkins. ``Hannah'' is a name you can 
spell backward and forward and get the same name. I would like 
to just deviate from my written speech for a few seconds.
    Over 16 years ago, I was counseling adults who had a 
chemical abuse problem, and I saw that so much emphasis was 
being thrust toward the adult chemical abusers, that they did 
not understand society, and that they were really leaving 
behind the children, and consequently, they left a lot of 
children with dope-fiend behavior.
    For 16 years, I have been dealing with children at the 
Children of Mine Center. I founded that center in my home, 
without any government funding, very few volunteers--just 
through the grace of God. I was just like the little old lady 
in the shoe who began to have so many children she really did 
not know what to do.
    So I went to public housing, and they gave me a 2-bedroom 
apartment in the naked city. Now you will probably say to 
yourself, what does she mean by the naked city? The naked city 
is classified as a community without any resources and only a 
fool would dare to tread there. It was public housing in 
Sheridan Terrace. I founded the center with approximately 140 
children coming from everywhere, not just in the community of 
Anacostia--but I also service children in Virginia and 
Maryland, as well as the District of Columbia.
    Our slogan is ``The cost of real love is no charge.'' There 
is no charge for the services that we provide at the Children 
of Mine Center.
    And what I would like to emphasize--and I am glad that you 
eluded to it, Senator, because so many of our churches get 
caught up in church. And I hate to say this, because I always 
run into trouble, but if God would come down here, visibly, and 
stand before us, one of the first institutions he would close 
would be the churches, because many of the churches are not 
reaching out to the least, the lost and the lonely. And I can 
very well say that because of where I am located. I am located, 
sandwiched in between hundreds of churches, and I get no 
support. It is only from people that I least expect that 
support to come from, that I get it.
    I would also like to say that I got the idea for the 
Children of Mine Center in my home when I saw so much despair. 
I started with a group of small children at the age of 4. Now I 
am servicing 4 through 18. And I am here to say to you today, 
my brothers and sisters, that we have not seen anything yet. In 
the next few years, we will be dealing with children of the 
damned. And you wonder what I mean by that--a lot of it will 
come from welfare reform. Many of these children, after their 
mothers are displaced or placed off the roles, are being thrown 
away. I know, because I get at least 6 to 10 children per day, 
begging me for a place to stay. And these are not adults. These 
are children ranging in age from 4 through 10, a critical 
stage. I just left this morning The Psychiatric Institute, 
which is on Wisconsin Avenue. One of my 9-year-old boys tried 
to commit suicide. These are the cases that I am running into 
every day.
    I am glad to know that you are not just sitting up here in 
these marble halls, behind a desk. I am glad to know that you 
are coming out, because that is the only way that you can 
really say that you have seen the true picture.
    I would also like to say that I have lobbied the DC 
Council, I have lobbied many other congressional aides, trying 
to reestablish not only my place--because I am just busting 
loose at the walls--but I am trying to establish a settlement 
house for children.
    Just alone, myself, I take home five and six children each 
night, along with many of the volunteers. Every day, a child 
comes, begging, ``Please take me home,'' because of the despair 
that is happening in the houses.
    We provide at the Children of Mine Center--and I know I 
have limited time, but I would just like to tell you about some 
of the services that we provide at the Center--we provide 
acting classes, arts and crafts, Bible study, computer 
training, drug and alcohol counseling--many teenage adolescents 
are currently drug abusers, and they are also selling at the 
ages of 11 and 12. We are also dealing with chronic 
prostitution. We have a food bank. We have fundraisers. We do 
outreach. I have two medical doctors who come in from the 
National Institutes of Health to give physical exams. We have 
creation. There is safe haven at the Children of Mine Center. I 
provide social services. We have sewing classes. We have teen 
services. Also, we have agricultural farming. There is a 
priest, Father Pittman, who is the oldest priest in the 
metropolitan area, who loans us his farm to teach the children 
about agriculture. At one time, the only chicken that some of 
our children had ever seen was in the grocery store, and that 
chicken or that rooster was dead; now, they are able to 
cultivate them on the farm and grow many of the vegetables that 
we eat at the Center.
    We have barbering classes. We have dancing lessons. We have 
educational placement. A group of small donors provided 
scholarships, such as Dick Armey's office, for some of our 
children to go to parochial schools, and they are doing so much 
better since they have been placed from the DC Public School 
System into a private or parochial school setting.
    We also provide foster care and adoption services; field 
trips; parenting skills for our parents; rap sessions; and 
regular physical checkups.
    We serve them each and every day a nutritious dinner, and 
before they leave, we give them a snack to take home, because 
many of the children after leaving the Center will not receive 
anything to eat until they go to school the next day, because 
many of them, 99.9 percent of them, are on the school lunch 
program at the DC Public Schools.
    We have tutoring, of course, and volunteer services. These 
are just a few of the many services we provide.
    In closing, Senator Brownback, I would just like to say 
that the greatest sin--and this is not only coming from my 
head, but it is coming from my heart--the greatest sin that any 
of us can commit is the sin of omission. It is not the things 
you do; it is the things you leave undone that become your 
haunting ghost at night.
    I am here, not pleading for Hannah Hawkins. I have a place 
to stay and food to eat. I am pleading for the children, the 
thousands of children that you--and not you per se, but your 
staff and the people here on the Hill--will hear about this in 
the next few years. Many of these children's parents and 
mothers have been incarcerated due to crack cocaine, and that 
is another ministry that I am dealing with. I just returned 
from Albuquerque, New Mexico, where I visited a brand new 
prison for women out there. Many of our mothers are out there, 
serving time for grand larceny, auto theft, and different 
things. And you know that when a woman is incarcerated, it 
depletes the family, because very seldom can a child go to 
visit the mother.
    That is why it is very important that we have established 
here in the metropolitan area a correctional facility, because 
once Lorton is closed down in 2001, you can forget all about 
it--that will be the depletion of the family.
    Thank you for listening me. If I went over my 5 minutes, I 
apologize.
    Senator Brownback. No apology necessary, Ms. Hawkins. That 
was a powerful statement and powerful testimony on the great 
work that you are doing. I look forward to talking with you and 
asking you some more about it.
    Mr. Till, welcome to the Subcommittee.

    TESTIMONY OF REVEREND JIM TILL,\1\ EXECUTIVE DIRECTOR, 
                  STRATEGIES TO ELEVATE PEOPLE

    Mr. Till. I would like to thank you and say that it is a 
privilege and an honor to be here with you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Till appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    The philosophy of the STEP Foundation is straightforward. 
We believe that poverty is a condition of the spirit which 
manifests itself in physical need. Poverty is relieved by a 
personal relationship with Jesus Christ. Therefore, STEP 
focuses on services to others so that through this service, 
people might meet Jesus.
    The mission of STEP is to help break the debilitating cycle 
of poverty and dependency--and I think we all know that once a 
person gets into this cycle, it is very hard, generation after 
generation, to break that cycle of poverty and dependency on 
outside agencies.
    We try to replace it with a cycle of hope, stressing 
affirmation through faith in Jesus Christ and a firm 
educational foundation, so that changes in self-esteem, self-
reliance and self-sufficiency can follow.
    Currently, we are working primarily in the Park View, Park 
Morton and Petworth neighborhoods of Northwest Washington. Our 
target populations in those neighborhoods are the children at 
Park View Elementary and Macfarland Middle School, and the 
parents of those students. At Park View, there are about 530 
students; at Macfarland, there are about 450. With their 
parents, that is quite a target.
    The programming that we have established was developed from 
some needs assessments by STEP staff, school administrators, 
and community leaders who helped us with the needs of the 
children and the adults.
    Let me first address the programming that we have for 
children through the STEP Foundation. On the elementary school 
level, we have adopted four primary thrusts. The first thrust 
is our Thursday evening tutoring program where we try to match 
students with tutors on not more than a 3-to-1 ratio. It is a 
2-hour session where students are primarily tutored in the 
areas of reading and math for 1\1/2\ hours. The last half hour 
is set aside for Bible study and snacks, so that the last thing 
these children hear about before they leave is the gospel of 
Jesus Christ.
    At present in this tutoring program, we are serving about 
85 children, with about 40 tutors who participate.
    The second thrust of our children's program is a weekly 
Bible club. This club meets for 1 hour after school, and a 
great importance is placed on Biblical training in life skills. 
We currently have about 50 students who attend our Bible club 
on Monday afternoons.
    A third thrust is the Pals Club. This involves pairing a 
group of volunteers with a group of children for a monthly 
event. It helps to put a positive role model in the children's 
lives and also helps them to experience life outside of the two 
or three blocks where they live and go to school.
    You would be surprised how many children who live in 
Washington, DC have never seen this building, have never seen 
the Capitol, have never seen the White House, have no idea what 
it is. I remember the first time I took the children from the 
Pals Club out to McLean Presbyterian Church, and as we were 
crossing the river, a little third grade boy asked me, ``How 
does this highway stay above the water?'' He had never been 
across a bridge.
    So we feel it is important to get these children out of 
those three or four blocks and let them see some other parts of 
life.
    A fourth part of our children's program is our summer day 
camp. This helps to give the children something positive to do 
during the summer rather than learning to sell drugs, learning 
the street culture. This summer adventure includes daily Bible 
teaching, arts and crafts, swimming, organized game times, and 
we try to take them on at least one field trip a week. It is 5 
days a week, 8:30 to 5 o'clock, and last summer, we had 100 
children involved in our summer day camp.
    For the middle-school children, which is a new thrust that 
we have just recently moved into this past year at the 
Macfarland Middle School, following the kids up from Park View, 
presently, we are providing a Saturday tutoring and mentoring 
program. We have found a corporation that has adopted these 
children. They provide transportation for them each Saturday; 
they either take them to their corporate offices for tutoring, 
or on a field trip somewhere that they feel would be enjoyable 
for the children.
    Each child has his own individual tutor or mentor who stays 
with him throughout the entire year, and it has gotten to be 
quite a sight for me to see how many of these tutors are 
calling the students at home now, asking, ``Have you done your 
homework?'' or they will call me and say, ``Johnny called me 
last night and wanted me to look up something for him on the 
Internet.'' They have learned about the internet from this 
corporation, and they are helping them all during the week now, 
not just on Saturday. This has become a very positive role 
model situation for these junior high school students. We are 
also making plans right now to place a Bible club in the middle 
school for next year as well.
    Also, we have a daily presence through myself or one of my 
part-time staff members in these two schools every day. Each 
morning, I try to make time to walk through Park View 
Elementary School, where my office is located, and walk by 
every classroom to see how the children are doing.
    One thing our teachers are beginning to realize in the 
public schools is that bad behavior does not mean it is a bad 
kid, because we do now know what these children have come from 
when they come to school in the morning. I know that our lunch 
room is full of children at 7:30 every morning, waiting for 
breakfast, because there is no food at home. And at lunch, you 
can tell those who do not have food at home, because no matter 
how bad the lunch may be, they eat it. And most of them do not 
eat again until they come back.
    We have worked with some children at the school--I am 
talking about kindergarten and first grade students--who may 
not have seen a parent for 2 or 3 days. They go home to public 
housing, let themselves in the door, take care of themselves 
all night, and they are the first ones at school the next 
morning to get something to eat.
    Senator Brownback. How old are these kids?
    Mr. Till. These are 4-, 5-, and 6-year-olds who are on 
their own. Their mothers are either on Georgia Avenue, dealing 
crack, or on crack, or they may come home after 3 or 4 days and 
straighten up for a while.
    There is a lot of criticism of our public schools, but we 
have got to realize that these teachers have had to become 
psychologists and social workers, and before they can start 
their classes in the morning, they have got to understand what 
is going on with their children before they can ever get to 
reading and math. So it is not just a bad situation with the 
schools; the teachers are in a bad situation to try to teach. 
It is not that they are not putting forth an effort. I am a 
great defender of some of our good teachers and our good 
principals.
    We do have a daily presence in the schools which allows us 
to pray with children--I have had teachers ask me to come in 
classrooms--``Could you start our day off with prayer?'' 
Teachers are not allowed to do that, but I can do that because 
I am not a school employee. I can pray with children, and I can 
help them with their needs.
    We also believe that it is important to help the family as 
much as possible, so we have an Adult Education Academy as 
well. We believe that the best way to actually help a child is 
to turn a parent's life around so that parent can help that 
child as well. If we can get a mother who can turn their lives 
around to Christ, become productive and deal with that child, 
then the child's problems are primarily over with, and that 
child will have a positive model at home; we do not have to 
take him outside the home.
    We do this through two vehicles. The first is the Adult 
Education Academy. The academy's goal is to increase the 
literacy and the life skills of its students. We can educate a 
drug addict, but then we have an educated drug addict. If we do 
not change their life skills, changing what is on the inside of 
them through Jesus Christ, they are no better off--they are not 
going to be able to hold a job, and they are not going to be 
able to keep their family together.
    So a lot of our teaching is through spiritual values and 
personal growth, and the education portion then falls into 
place.
    We have weekly focus groups where these students can get 
together with their peers and learn to interact with each other 
in a positive way, rather than getting mad at somebody and 
reaching around and slapping them or something. They learn how 
to deal with anger in the proper way, and they learn how to 
deal with conflict in the proper way. Through these focus 
groups, they can learn to apply the new life skills that are 
being taught to them.
    The second thrust, quickly--and I know I am running short 
on time--the second vehicle we use is care teams. This is where 
we try to affect the neighborhood rather than just the family. 
This is done by one of our academy students reaching back to 
four of her neighbors and bringing them into a little group 
together. This academy student then helps to mentor these other 
four families, and at the same time, all the members of this 
group are helping each other and encouraging each other. From 
this, change not only comes to the family, but change comes to 
neighborhoods also.
    STEP is very volunteer-intensive. We have very few paid 
staff; we depend heavily on volunteers, as you have heard from 
our tutoring and mentoring programs. We have quite a few good 
volunteers now, but as with all organizations, we always need 
many, many more.
    In closing, I would just like to quote from the Apostle 
Paul's First Letter to the Corinthians, Chapter 10, Verse 33, 
where he says: ``For I am not seeking my own good, but the good 
of many, so that they may be saved.''
    As we at STEP attempt to fulfill this scripture, we ask for 
your prayers and the prayers of your colleagues so that we can 
continue to bring Jesus to them so that they may be delivered 
out of the lives that they are in now.
    I would like to thank you once again for allowing me to be 
here today.
    Senator Brownback. We are happy to have you here, Mr. Till, 
and I appreciate that statement of what you are doing to 
provide nurture to both the soul and the body.
    Next, we will hear from Amy Hunt Johnson, director of the 
Neighborhood Learning Center.
    Thank you very much for joining us today, Ms. Johnson. We 
appreciate your appearance here today.

   TESTIMONY OF AMY HUNT JOHNSON,\1\ DIRECTOR, NEIGHBORHOOD 
                        LEARNING CENTER

    Ms. Johnson. Thank you, Mr. Chairman, for this opportunity 
to testify this afternoon. My name is Amy Johnson, and I am the 
director of the Neighborhood Learning Center.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    We are a faith-based organization just down the street, at 
9th and Maryland Avenue, less than a mile, and we are an out-
of-school-time program providing a place where students and 
their families can learn and grow together.
    Through our after school and summer enrichment programs, 
Neighborhood Learning Center provides remediation and academic 
enrichment, social skill development and spiritual training for 
children and teens located on Capitol Hill and surrounding 
neighborhoods.
    The Center currently serves nearly 65 students in grades 1 
through 12, and the majority of our students come from single-
parent working families as opposed to some of the situations 
that we have heard about today, but we see some of the same 
kind of issues and problems that we have been working with.
    Our Center works closely in partnership with Miner 
Elementary School but continues to work with our students as 
they graduate and either switch to other schools or move into 
junior high and senior high as well.
    It is our vision that all of our students will be prepared 
with an academic, social and spiritual foundation. They will 
graduate from high school, successfully transition to higher 
education or full-time employment and become productive, 
contributing members of their communities.
    NLC students will strive to love God, their families and 
themselves, valuing each other and all peoples.
    After 15 years--we have been in operation for 15 years 
now--we have seen some of the fruit of our labors. One of our 
full-time staff members, Carmen Strong, who is here this 
afternoon, was one of our original students, and after she 
completed her college degree in elementary education, she came 
back and has been on staff for the last 3 years and leads our 
elementary education program.
    Senator Brownback. Welcome.
    Ms. Johnson. We have five other students who are in 
institutions of higher education, and two more are considering 
enrollment this fall. In fact, 46 percent of our students 
continue into higher education, and we compare that to the DC 
public schools' average of 26 percent; so we are seeing some 
improvement there.
    A full-time staff and many volunteers facilitate the 
academic tutoring and homework assistance, computer and reading 
labs, testing and advocacy, Bible study and enrichment 
activities, job training, camp opportunities, field trips and 
parent programs.
    One of the second grade teachers in our partner school 
commented to an NLC staff member that she could tell which of 
her students attended the Center. Their word recognition skills 
were far more advanced than those of the other students. One 
student in the class was showing remarkable improvement, and 
her mother wrote us a note saying the Neighborhood Learning 
Center was ``heaven-sent.'' She said her child was very slow in 
reading and that with the help of the Learning Center, she is 
90 percent better.
    We have noticed that our students really dislike science, 
and we are convinced that the reason for that is because they 
have not been given interactive, hands-on experience with 
science. Last summer, our students--similar to the Children of 
Mine experience--had the opportunity to really have some hands-
on experience with science when they monitored the hatching of 
baby chicks, watched larva turn into butterflies, and they got 
to dissect frogs and a fetal pig.
    One of our students whom I will call Lamont--I have changed 
the names of some of my students to protect their 
confidentiality--was having a really rough time during the 
summer until he watched the eggs hatch into baby chicks. Then, 
something really touched this young man, and the tenderness and 
care that came out of him was a sight to be treasured.
    We believe that these are the kinds of experiences that 
make learning not only exciting but touch the very souls of 
young people.
    This fall, Lamont's renewed interest in science continued, 
and he used some creative problem-solving and developed his own 
hands-on science experiment, which resulted in a first-place 
prize in science at his school. We feel like we accomplished 
something there.
    But the Learning Center is more than academics, and I would 
like to share a story about a student who came to us just 
recently. Despite tremendous hardships at home, like some of 
the things we have heard today--his father is incarcerated, and 
his mom has a substance abuse problem--this young man, who was 
a very bright student, was having numerous discipline problems 
at school. While it took several months and a very persistent 
staff for us to get him into our Center, his grandmother 
finally completed the enrollment papers so he could 
participate.
    When he brought in his first report card since his 
enrollment, we were actually pleased to see that his 
citizenship grade had improved tremendously. His teacher 
commented that his behavior and attention at school had 
improved significantly. We believe that this was true because 
Keith now has people who care whether he goes to school or not; 
he has people who care how his day went and whether he finishes 
homework; he now has someone who gives a warm greeting after 
school and offers encouragement on a job well done. This sounds 
insignificant, but it is critical to this young man's future.
    It is a well-known fact that a young man will find his 
family somewhere on the street if he does not find it 
elsewhere.
    Our students often say they love NLC because of all the 
wonderful places they get to visit and explore. We are 
convinced that in order to build dreams for the future, young 
people need to be exposed to the world, its different people 
and experiences.
    We also believe that students should be rewarded for hard 
work and commitment and motivation. Frequently, these rewards 
at the Learning Center take the form of trips, near and far, to 
challenge students beyond their comfort zones. We have taken 
students whale-watching in the Atlantic Ocean, rock-climbing in 
Pennsylvania, and we are getting ready to go on a trip to 
Chicago with our students this week.
    It is our desire to stand in the gap between school and our 
students' families. We believe the community has a significant 
role to play in supporting schools and families and can work 
successfully in bringing the two together. Our staff volunteer 
weekly in our partner school to aid in this process.
    We all know the state of DC public schools, and I do not 
need to elaborate on that. We often see that students 
repeatedly fall through the cracks.
    We have a student, Antonio, who has repeated the first, 
third and fifth grades, and it has only been through the 
efforts of our staff that this young man has finally been 
tested for learning disabilities. While designated to be 
socially promoted to junior high--you may have heard that all 
students who are 13 and still in elementary school will be 
socially promoted next year--we are hopeful that he will be 
placed finally in a setting that will meet his needs and that 
he will not be just socially promoted into the eighth and ninth 
grades.
    Meeting the needs of the whole child includes working with 
our parents in being advocates for their children's education 
and teaching them what they should expect from their children's 
teachers and schools.
    One of the hallmarks of the Neighborhood Learning Center is 
our long-term commitment made to students. Once a student is 
enrolled in the program and continues to meet our expectations, 
a commitment is made to walk with this student through high 
school.
    Sheron is one of these students, and she is with me today. 
Sheron--she is waving.
    Senator Brownback. Welcome.
    Ms. Johnson. Sheron came to us when she was in the third 
grade, as a struggling student who has a twin, and she was 
really struggling with her self-esteem. During her fifth grade 
year, we decided to put her as the lead in our Christmas 
pageant, convinced of that which Sheron did not even see in 
herself. When the parts were distributed, and Sheron was 
announced as the lead, I can still remember all the other 
students groaning and complaining that Sheron was going to ruin 
the Christmas play.
    But they could not have been farther from the truth. As 
Sheron practiced, the hidden dramatic talent blossomed, and 
Sheron was the star of the show and changed forever in the 
process. Her self-confidence grew and spilled over into every 
area of her life. Preparing to graduate from Eastern High 
School in a few weeks, Sheron boasts of dramatic talent and 
recently performed in Othello at both the Shakespeare Theater 
and at B. Smith's in Union Station.
    Knowing your students, their strengths and their weaknesses 
takes time, and over 75 percent of our students continue year 
to year, building the foundation for a brighter future.
    I want to thank you for holding this hearing on faith-based 
organizations and the contributions that organizations like 
ours are making. So often, we are asked to minimize the faith 
component of our programs and downplay its significance in our 
success stories. However, just as we believe it is important to 
provide an academic and social foundation, providing a 
spiritual foundation is critical to the future of our students. 
A spiritual foundation provides the moral framework for the 
good decisionmaking that is just a practical application that 
we all know; but also, it provides the strength to stand firm 
in adverse situations.
    Faith-based organizations like the Neighborhood Learning 
Center have to make the most of every dollar they receive, 
relying heavily on a small group of committed employees and 
volunteers to carry out its mission. I am convinced that some 
of the best work is being done in small, faith-based 
organizations. Imagine what we could accomplish with a greater 
resource base.
    Thank you.
    Senator Brownback. Thank you very much, Ms. Johnson, for 
your testimony. That was a beautiful story about Sheron and the 
Christmas play in the fifth grade. It reminded me of the story 
they used to tell about Michelangelo, where he was rolling this 
big rock down the street in his village, and some people asked 
him, ``Why are you sweating and rolling this big rock down the 
street?'' And Michelangelo was reported to have said, ``Because 
there is an angel in there, just waiting to come out.'' And I 
think there are angels within all people; we just have to 
figure out how to get them out.
    Ms. Hawkins, your testimony was the most--not that all of 
you don't have excellent testimony and a lot of great 
accomplishments--but yours was perhaps the most troubling, 
where you said five to eight children each day are coming to 
you, asking for help.
    Ms. Hawkins. Yes.
    Senator Brownback. What ages are those children, and what 
kind of help are they asking for that is slipping so much 
between the cracks?
    Ms. Hawkins. I was sharing with the young lady who brought 
me over here today, Ms. Leslie Gardner, just a few minute ago 
how there was a young man--it is usually between Friday and 
Saturday that these children come to us, and they are in the 
program, but their mothers are being evicted, and they do not 
want to go into the shelter, or they do not want to go 
somewhere else to live, so they ask me or one of my volunteers 
if they can come and live with us. And this is what is so 
profound and frightening, because they are little children and 
adolescents.
    Senator Brownback. How old are they on average?
    Ms. Hawkins. Some are 7, 8, 9, 10, 11, and 12. The oldest 
usually is around 15, or 16. We have a young man who lives in 
Northeast who is my primary foster parent, and he has eight 
children living with him now, and he has to move. So when I 
leave here, I have to go somewhere to try to find him a house, 
because two more children over the weekend have requested to go 
and stay with him. He is going to have 10 boys, and so we are 
looking for a house.
    I, myself, take home at night about four or five children.
    Senator Brownback. Every night?
    Ms. Hawkins. Every night.
    Senator Brownback. Different children, who just do not have 
a place to stay that night or do not want to go to the shelter?
    Ms. Hawkins. Different children, and they do not have a 
place to stay. Usually, the girls, someone will pick them up; 
but the young men are the ones who are hanging, and they do not 
want to be in the street. This is why I was sharing with one of 
the correctional directors that in the next 2 to 3 years, we 
will definitely see a whole bunch of young men coming up--they 
will be very young, and they will be your children of the 
damned. We are focusing up here, when we need to be looking 
down here. So it is a very, very serious situation, and the 4- 
and 5-year-olds come to me from all over the city, not just in 
Anacostia; they are coming from Northeast, they are coming from 
Prince George's County. I have children who come to me from as 
far away as Manassas, Dale City, Centreville, in Northern 
Virginia. They are in trouble, and they are trying to stay out 
of the streets. And the more I beg, the more I plead--I do not 
want anybody to give me anything; I just want someone to give 
me a place for these children.
    Senator Brownback. What do you need? What kind of place do 
you need?
    Ms. Hawkins. I need a building, something like my dear 
friend, Dr. Eyring, who has the mission; I need a building like 
that, because where I am now is just an after-school center. 
The children get there at around 3:15, and I keep them until 9 
o'clock at night.
    Senator Brownback. So you need a building where you can 
keep them overnight.
    Ms. Hawkins. I need a building to keep them overnight 
temporarily, until a permanent situation can be found for these 
youngsters. Just like where he has the men, I need a building 
just like that for the children.
    Senator Brownback. How many children would you have each 
night if you had a building like that?
    Ms. Hawkins. I would have over 100. I service just within 
the realm of the center each day--and I am not talking about 
outreach; I do outreach on Wednesday, when I go all over the 
metropolitan area to see children who cannot come to me but who 
still have the same need. It is just like a dope fiend--just 
because you move to California, if you do not take care of the 
problem here in the District, if you were a dope fiend here, 
you are going to be a dope fiend there--that is the same way it 
is with these children. Even though they move from my general 
area, I still give them outreach services. So I am in a 
critical situation here, and it is getting worse and worse.
    Senator Brownback. Do you have your eyes on any buildings 
that you know of that are available that we could help push for 
you to get?
    Ms. Hawkins. Yes, I do, but it is such a bureaucratic 
situation----
    Senator Brownback. What buildings do you have in 
bureaucratic roadblocks?
    Ms. Hawkins. Well, there are some houses in the general 
area where I am, and you have got to go through ``la-dee-da-
dee'' and everybody else--and all I want to do is find a 
building for my children to stay in. That is all. I have no 
money. I am not federally funded. I do not get anything from 
the District of Columbia. I get a few dollars here and there 
from people who are committed to what I am doing, and that is 
enough to keep the lights on and for me to buy food. I do not 
get hundreds of thousands of dollars.
    Senator Brownback. Dr. Eyring.
    Dr. Eyring. Just to highlight the problem that Hannah is 
talking about, we have in our constituency some pretty hardened 
men who have been on the streets, have been in the crack 
business, have been on drugs for up to 20 and 30 years--and 
they are scared to death of these children who are coming out 
now. Our men do not want to be around them. They see these 
children--and we talk about ``children of the damned''--a 
problem that is a total quantum difference from the men we have 
who are lost; I mean, they are really lost. They are sleeping 
on grates and things like that, and they are afraid for their 
lives of these children who are coming along now.
    So I think it is really not a bad idea to give some thought 
to the nature of the problem.
    My wife is just telling me that if we had this McKinley 
site, we would give her all the space she needed.
    Senator Brownback. The McKinley site that is going to you, 
or----
    Dr. Eyring. Well, we have the same kinds of issues that 
Hannah does, but there are three big schools, all in the same 
geographical area, that are on this program for selling the 
schools to get money to fix the other schools, and we are 
trying to find a creative way to have that whole site kept 
together and given to a consortium or a collaborative group of 
people who could minister to the total family spectrum rather 
than chopped up and given to developers for the highest dollar. 
So we are trying to talk the District and your counterparts and 
you into looking at the idea of assigning this center to a 
group of us to take care of these problems.
    Senator Brownback. Would this kind of facility work for 
you, too, Ms. Hawkins?
    Ms. Hawkins. Yes, it would.
    Senator Brownback. That would be the sort of thing that 
would work for you?
    Ms. Hawkins. Yes. I would make it more or less a home away 
from home. This is what the children are looking for--someplace 
where they can come and feel safe. But they are very dangerous, 
very dangerous.
    Senator Brownback. The children themselves are very 
dangerous?
    Ms. Hawkins. Yes, because they are angry. They know I go 
out every day, lobbying. I lobby every day, Senator, and come 
back empty-handed. And then, when I turn on the TV and see 
someone being given $100,000, who does not do a fraction of 
what we are trying to do for these kids here, it really vexes 
my soul.
    These kids are very, very depressed, and they are very, 
very angry, and consequently, they are very, very dangerous. It 
is survival. And most men--and the reverend said it--most men 
are very afraid of them.
    Senator Brownback. They are afraid on the streets?
    Yes, please, Mrs. Eyring.
    Mrs. Eyring. I am Mary Jane Eyring; I am the other half of 
this man right here.
    Senator Brownback. The transforming part of this, I 
believe.
    Mrs. Eyring. One of the reasons why we are so excited about 
the possibility of this complex of schooling is that there is a 
marvelous physical facility of football fields, tennis courts, 
basketball fields and a baseball diamond. These children, as 
well as the men whom we are serving, need to have some outlet. 
They stand on corners, stand and smoke and talk and think about 
things they can do to get into trouble. They need to have 
something to do. They need to have competitive sports that they 
can participate in, and this would provide us with a means of 
giving them this opportunity.
    Senator Brownback. Good.
    Dr. Eyring, you stated a 70 percent record on getting 
people off of drug addiction in your program. Did I catch that 
correctly?
    Dr. Eyring. That is correct.
    Senator Brownback. How does that compare to other treatment 
programs?
    Dr. Eyring. One of the problems we have is that people do 
not always compare apples with apples. For example, if you 
measure the success rate of people who come into the program 
versus those who graduate, a good success rate is 50 percent. 
If you take the people who graduate, and then you follow them 
for a certain period of time--and that particular number comes 
from a group of men who graduated from our drug management 
center, called the Haven, and were followed for 15 months--we 
found that 70 percent of them were still clean and sober and 
productive.
    It is very important to find out exactly how the statistics 
that you are looking at were measured, but that is how we do 
it, and I know everybody does it a little differently. I would 
like to say that they would like to be clean and sober and a 
Senator, or something like that, as a sign of success, but we 
would not get very many successes that way, so we have to be 
somewhere in the practical range. Follow-up is very difficult; 
that is one of the things we are looking at now, is a means of 
assessment and follow-up of the people who come through.
    Senator Brownback. I do not know that many people would say 
becoming a Senator is a sign of success or not. They may look 
at that a little differently.
    I appreciate the specific example that you have given me of 
this facility, because that is something that we can follow up 
on, and I am turning to staff to make sure we do that. We do 
have some chances here, as change are going on in the District 
of Columbia, to try to do some things like this, and this is a 
terrible situation that you are identifying and something we 
need to address.
    Do any of you see specific items that are blockages in the 
way of your programs delivering services or things that we need 
to address to allow you and your programs to be more effective?
    Dr. Eyring. I do, but you need a chance.
    Ms. Hawkins. Go ahead.
    Dr. Eyring. A lot of it has to do with permitting and 
zoning and ANCs and city government and the Federal Government. 
We tried to put this Barnabas House building on the line, and 
we have been over a year just trying to get the permit signed 
and people to come and look at the place, and one thing just 
leads to another. It is very, very complex in terms of even the 
selling of the schools. They have a system where people put in 
bids, and if they do not like the bids, they do an appraisal, 
and then they come in for a best offer after the appraisal, and 
if they do not like that, then you put them back into the 
bidding process.
    It could take us 10 years to get these buildings through 
the ordinary bureaucratic river that flows in the District, so 
I am looking to you as ``God'' in this situation, to simply 
say, ``Hey, give it to these people, and write off a certain 
amount of the debt from the public schools'' and say, ``Hey, 
you do not have to pay us that much--instead, you count this 
assignment against what you owe us.'' I think the Board of 
Trustees that has been assigned to sell these buildings would 
probably be happy if part of their debt were written off and 
this thing was diverted.
    Unfortunately, I am a surgeon, and I sort of cut to the 
quick of things, and what I am saying is not standard District 
bureaucracy, but I do think that is the thing that I run into.
    Perhaps some of you would like to comment on that.
    Ms. Johnson. I would like to comment on the same theme. One 
of my staff has been very involved, and we are trying to start 
a school, and last year, it could not open in our facility 
because of zoning issues. It has taken another whole year just 
to get a hearing, so we are in the same kind of situation, 
where we are just trying to get a zoning variance, and the red 
tape and the bureaucracy around that and knowing just how to 
make that happen is a very trying situation.
    Ms. Hawkins. I am currently in the Southeast Neighborhood 
House, and I have been in court for the past 6 years, trying to 
save the facility. They have board members who are no longer 
board members, but it is still lingering.
    I would also like to say, Senator, that there are plenty of 
vacant, boarded-up houses right there that I could utilize and 
get started with--tomorrow. With your help and through the 
grace of God, I would like to see that happen. But going 
through all this bureaucratic stuff is nonsense. Like the 
Reverend said, the children are getting older, the children are 
getting angrier, yet all of these houses are still boarded-up.
    So I would like it if, through your influence, you could 
help to get things moving for us.
    Senator Brownback. That is a good point. You have given us 
a couple of good suggestions here, things that we can help with 
and work with you on. We will re-contact you as well after this 
hearing to see if there are things that we can do specifically 
on targeted facilities. You have given us a good example of 
this one here, and we will see if we can follow up with you and 
help you move through some of the bureaucracy as well.
    A lot of the Senate offices do a great deal of that for 
constituents back home, and the District of Columbia does not 
necessarily fall into anybody's specific category--it falls 
into all of our categories. So we need to do a lot, each of us, 
in that area.
    This has been an excellent panel. I am heartened by your 
work, and I want to be a partner with you to help you get it 
done, and we are going to see what we can help out with. As I 
mentioned, I will be touring, and we will see if we can help 
facilitate some of these needs.
    Thanks a bunch.
    Senator Brownback. Next, we will hear from the Hon. Dan 
Coats, the Senator from Indiana, who is the head of the Renewal 
Alliance and dean of all of us who seek to do the good and 
noble things in Washington. Dan has been an inspiration to me 
for many, many years. I hate to see him leaving the U.S. 
Senate, but I know his work is not done, and it will continue 
in many other places.
    Senator Coats, thanks for joining us here today. Your staff 
member has been here, listening to a number of other folks who 
have been testifying ahead of you. Let me know what you think 
we ought to do about the District of Columbia and what we can 
do with Renewal Alliance efforts in DC.

 TESTIMONY OF HON. DAN COATS, A U.S. SENATOR FROM THE STATE OF 
                            INDIANA

    Senator Coats. Mr. Chairman, thank you very much for 
inviting me here today. I want to commend you not only for your 
participation and involvement in a number of the renewal 
efforts that I have been involved in and that many of us have 
been involved in, but for your leadership, particularly in 
calling this particular hearing to again highlight the 
importance of nongovernment organizations, community-based 
organizations, faith-based organizations in addressing some of 
the most difficult social problems that our country faces, 
particularly urban social problems, and in this particular 
instance, those problems that are just down the street from 
where we now sit that have had such a profound negative impact 
on the lives of so many here in Washington, DC, but also offer 
such great hope, I think, for addressing these problems through 
utilization of the services, the transforming nature that many 
of these organizations can bring to renew neighborhoods and, 
more importantly, to renew lives. I commend you for your 
interest in that.
    One of the great satisfactions that I have in leaving the 
Senate is knowing that there is a cadre of individuals like 
yourself who share the vision, who have the passion to activate 
that vision in a meaningful way and to assist these 
organizations and bring about real renewal and real hope for 
renewal for the people of the District of Columbia as well as 
other areas of the country. I think the District of Columbia 
can serve as a great example of how we can address a lot of 
these problems in a more effective than they have been 
addressed in the past.
    We both know, Mr. Chairman, that over the past 30 years, we 
have undertaken the greatest experiment in the history of 
mankind to try to utilize the services of government, the 
revenues that this wealthy Nation has been able to supply, to 
solve these problems; and we both know that while many of these 
programs were well-intended and well-motivated, they not only 
have failed to solve the problem, but in many cases, they have 
aggravated existing problems by creating a culture of 
dependency, by misapplying funds that ought to go to those in 
need and instead are eaten up in a very significant way by the 
bureaucracies that have been established.
    The Beacon Hill study just a few years ago indicated that 
more than 60 percent, almost two-thirds, of the dollars that 
are appropriated never get into the hands of the individuals 
who most need them; that along the way, bureaucracy and a 
number of other entities seem to interrupt that flow of well-
intended support.
    But as a black rural minister told our Subcommittee on 
Children, Youth and Families in Macon, Georgia several years 
ago at a hearing on the problems of rural youth--he looked us 
directly in the eye from the witness table--about eight or nine 
Members, both Republicans and Democrats--and he said, ``You 
people in Congress just do not seem to understand. All the 
money in the world, all the programs in the world do not go to 
the heart of solving the problems that I have to deal with on a 
day-to-day basis. You need to understand that we are dealing 
here with individuals who consist of body, mind, soul and 
spirit. And there is no way that government can or should even 
try to be involved in solving the problems of soul and spirit. 
That is the role of the family. That is the role of the church. 
That is the role of organizations that are not tied to 
government, not restricted by First Amendment problems, not 
tied to bureaucratic oversight, but those that are constituted 
to reach in and change individuals from the inside out. 
Government is constituted to try to solve problems from the 
outside in--change the environment, and you will change 
society.'' Well, for 30 years, we have pretty much had that 
backward--change individuals, and we will change neighborhoods, 
and we will change societies.
    But you have to start with the individual. And when you are 
dealing with the individual, as Reverend McKinney said at that 
hearing in Georgia, you are dealing with more than just 
material needs; you are dealing with profound social problems, 
psychological problems, problems of the heart, as well as mind 
and body. So that providing a roof, providing a meal, providing 
a process does not address the fundamental, underlying needs 
that have resulted in some of the problems in the first place.
    That is why I was so pleased to know that you were holding 
this hearing and that you are reaching out to organizations 
that have demonstrated success in changing the lives of 
individuals and, therefore, changing communities and 
neighborhoods and families and changing society by these 
individuals' changed lives.
    I was proud to walk in and see someone who has become very 
near and dear to me in addition to the Eyrings--James 
Washington, who is a living demonstration and representative of 
many living demonstrations of that transformation that can take 
place. I hope James has an opportunity to tell you his story; I 
do not know if he is here accompanying the Eyrings or not, but 
his is one of the most inspiring stories that I have ever 
heard--but it is not unique, and that is where the hope comes 
from. There would be hope enough just in James' story, one 
life, but James represents hundreds if not thousands of 
transformations that have literally been what society would 
call unexplainable.
    No Federal program made this happen, and no amount of 
Federal revenues made this happen, no well-intended Federal, 5-
step, 10-step, 20-step, 50-step program made this happen. It 
was the combination of the kind of love--some would call it 
``tough love''--combined with spiritual transformation that 
James was able to receive when he walked through the door of 
the Gospel Rescue Ministries that succeeded where numerous 
programs before had failed. His life today is a living witness 
and testament to the success of these organizations that can 
bring not only elements that deal with body and mind, but soul 
and spirit.
    The reason why we need to encourage these types of 
organizations is because that is where the real hope lies, and 
that is where the real transformation can take place. Because 
we know that government cannot create these types of 
organizations and cannot be in that kind of business and would 
not be successful if they were, we know we need to go beyond 
government. We need to reach out and find ways in which we can 
nurture and encourage and expand and allow these organizations 
to do greater work.
    So the question comes, is there a role for government. I 
think there is a role; there is a transition role as government 
transitions from a system that has demonstrated failure to 
encouraging those organizations outside government that have 
demonstrated success and to help rebuild those organizations. 
You know, it was not that long ago when they flourished in 
society. The church was the center of the social services, it 
reached out to people, and these organizations had a more 
prominent role. But government came along in the sixties and 
seventies and said, ``They are not doing enough, and we can do 
much more through government.''
    Well, we are about $4 trillion or more later. We are 30 
years later. We are a lost generation later. Now, fortunately 
and thankfully, we are turning back to recognizing the value 
that these organizations and these types of programs can bring, 
and the kind of healing and the kind of hope that they can 
bring.
    You have been working with me, Mr. Chairman, and our 
colleagues to form the Renewal Alliance, to promote ways in 
which we can begin the transition back to these types of 
organizations so they can play a much more prominent role. We 
have created a number of initiatives, the latest of which is 
called ``REAL.'' ``REAL'' stands for Renewal, Empowerment, 
Achievement and Learning. It is a package which we introduced 
together not that long ago which contains three basic 
components. It is a very significant piece of the puzzle, I 
think, in terms of how we reach out and paint that mosaic which 
will really make a difference in so many lives, but none of us 
claim that it is the only blueprint. It is one of a series of 
initiatives, but we think it is one that has a real chance of 
success in the Congress to begin this transition process back.
    I would just like to briefly explain it for the record, and 
I know you know much about it. It contains three basic 
components.
    First, the Real Life Community Renewal Act is a renewal 
credit, combined with liability reform and charitable donation 
protections. But the heart and soul of this is allowing 
individuals to achieve a tax credit to offset some of their tax 
dollars if they direct those dollars toward organizations like 
Gospel Rescue Mission, Boy Scouts, Girl Scouts, Big Brothers, 
Big Sisters, Salvation Army--some of these programs that are 
working within our communities and are making such a difference 
in people's lives.
    We think it holds a great deal of promise. Two, we avoid 
First Amendment problems. It is not a politician or a 
government bureaucrat who is directing where the money goes; it 
is the individual taxpayer himself or herself who is saying: 
``I think some of my tax dollars can be used more effectively 
by my selecting an organization that I think is really making a 
difference, rather than sending it to Washington, where it 
seems to just get lost in a maze of bureaucracy, and I do not 
know where it goes.''
    When I read this Beacon Hill study, saying that two-thirds 
of it never gets to the people that I think the government is 
going to use it for, I think I can do a lot better with my 
dollar by giving it to an organization where I know the people 
who run it, I know the kind of work they do, I have seen the 
results, I volunteer there on a Saturday, or I have a friend 
who volunteers there--I have much more confidence in this.
    I have used the line, and maybe you have, too, that if you 
had $1,000, and it was eligible for a tax credit, but you knew 
it was going to be sent to the government to be used for social 
purposes, and you really cared about providing, say, good 
housing for low-income individuals, do you think that dollar 
would be better used and would go farther if you gave it to 
Habitat for Humanity or to Housing and Urban Development?
    Well, 999 out of 1,000 will say I think Habitat for 
Humanity can make better use of that money. The only one we 
find who votes on the other side is the local HUD 
representative who shows up at the town meeting.
    If you care about fatherless kids, kids without a father in 
the home, do you think Big Brothers, Big Sisters or big 
government can better address that problem?
    On and on it goes. So the value of the tax credit, we 
think, and giving individuals a choice as to where their money 
goes--if they think it can be better used in HUD, fine, they 
pay their taxes; but if they think it can be better used at 
Habitat or better used at Gospel Rescue Mission, then we want 
an incentive in place to do that.
    The second part of that package is the Economic Empowerment 
Act. That brings the economic renewal, combined with the social 
service renewal, into poverty areas or low-income communities. 
It combines a whole series of targeted benefits for the 100 
poorest communities in the Nation to demonstrate its benefit, 
with pro-growth tax benefits, regulatory relief, brownfields 
cleanup, home ownership opportunities, and a number of 
initiatives that you and I have worked on in the House 
previously and are now working on in the Senate.
    The third part of that package is educational 
opportunities. We think that economic empowerment, 
compassionate care that works, combined with educational 
opportunities for young people, are a good set of initiatives 
that really bring hope and transformation to some of our 
poorest communities. We have also worked together on these 
scholarships for children, particularly as it applies to the 
District, since that is what we are talking about here today. 
The whole scholarship here in DC is, I believe, going to make 
DC schools better schools; it is going to bring about the 
reforms that we have been pleading with the system to make, but 
without much success, because they really have not been put in 
the competitive situation whereby they either improve their 
product, or they do not survive.
    Not that long ago, the Washington Scholarship Fund offered 
1,000 scholarships, and 7,500 people signed up. There probably 
would have been a lot more if they thought they had a chance. 
Some additional funds are going into that, and part of this 
whole effort is to try to provide some funds that will give the 
only kids in America who do not have a choice as to where they 
get their education a chance along with everybody else. These 
kids are condemned to a failing education, which means they 
will not have the skills to enter the job market, they will not 
have the education to leave those schools and go on to further 
their education, and they will not qualify for that.
    The statistics in DC are appalling. We had the former 
superintendent of public schools in Milwaukee testify before my 
Subcommittee, and he said, ``Believe me, Senator, I have tried 
every initiative known to mankind to reform the public schools 
in Milwaukee.'' He said, ``I am dedicated and committed to 
public education, and I have tried everything, everything you 
can think of, and a lot of things you never thought of, every 
idea that came to me, to try to shake that system and change 
that system, and nothing worked except vouchers. Nothing worked 
except Choice.'' And when we put the Choice program in place in 
Milwaukee, suddenly, the schools said, ``Hey, we had better get 
our act together, or we are going to lose our jobs; we had 
better get our act together, or we are going to have to close 
this school down; we had better get our act together because 
all the parents and kids are opting out of the system.''
    Well, that is the American way; that is the free enterprise 
system. What kind of cars would we drive if we only had one car 
company that we could purchase our cars from? It would just be 
a mediocre, run-of-the-mill, average--kind of the car 
equivalent of the education system described by the blue ribbon 
panel in 1984--``Mediocrity in Education.''
    America, with all of our wealth, with all of our capacity, 
it is shameful that we have an education system, a public 
education system, particularly in our urban areas. Now, as I 
said if you live in a suburban area, and if you have the 
income, and you do not like the education system you are in, 
and you have the income to pay for a private education, you can 
do so--but tell a single mother that in DC. Tell a low-income 
family that in DC. They will say, ``Are you kidding? I can 
hardly get the rent paid by the end of the month and get the 
phone bill paid and clothes on the kids and shoes on their feet 
in order to get them to school. You are talking about me coming 
up with money to get them out of this school and send them to a 
private school? There is no way I can afford that.''
    They are the only ones who do not have the option, and that 
is what we are trying to do with the education program. So we 
have these three components. We are united as a Renewal 
Alliance; I am excited about it. We incorporate the wisdom and 
the resources of America's private, primarily faith-based 
institutions to solve the problems of the urban poor. We have 
had 30 years of experiment the other way. It is time to try a 
new alternative. We have some very hopeful stories that give us 
real cause for rejoicing and hope, that maybe we have found a 
way in which we can make a difference in people's lives and 
make a difference in the community.
    Gospel Rescue Mission is one of the prime examples. It 
opened my eyes to the kind of transformation that can take 
place where everybody else failed, where all the government 
programs, over and over and over failed. Suddenly, I walked 
into this most inspiring place in Washington, DC and literally 
saw transformed lives, people who are becoming productive 
citizens, reaching back to their families where there had been 
broken relationships before, earning gainful employment, moving 
from homelessness to home ownership, moving from civic 
irresponsibility to civic responsibility, making contributions 
to their communities. These are the examples that we need to 
emulate. These are the examples that we need to expand and 
nurture and let them grow so that they can begin to address 
some of these most difficult problems.
    I have spoken longer than I ever intended. As you can tell, 
I get all worked up when I get into this subject. I have 
examples galore, and I just want to finish by commending you 
for, one, your interest, two, your vision, three, your passion 
in pursuing that vision, and four, your commitment to work with 
all of us in addressing the problems right here, where we live. 
People say maybe the Federal Government should not be involved 
in Texas or Kansas or Indiana or wherever, but we have a 
responsibility for this city. This is a Federal City. It is our 
Capital City. We have a responsibility here to try to reach out 
and solve some of these problems, and through your Subcommittee 
and through your work with our Renewal Alliance and other 
efforts, you are doing that, so I really commend you for it, 
and I thank you for this chance to testify.
    Senator Brownback. Thank you very much, Senator Coats, for 
the groundbreaking work that you have been doing to get us 
back, I think, to the right page so that we can really reach 
out and touch people and the proper role of government and the 
proper role of charity. You have tried to bring that balance to 
it, and you have really set the model and set the template for 
a lot of us in looking to do these sorts of things.
    We heard an excellent panel of witnesses prior to your 
testimony about faith-based charities and what they are doing 
in Washington, DC, the good things they are already doing, and 
the much larger things they could do if they were free from 
some of the bureaucracy, which is part of the Renewal 
Alliance's agenda as well.
    One thing that has been striking to me is that Members 
have, I think, an extraordinary opportunity to reach out and 
see these charities grow and flourish by the actions that we 
take privately. In your years in the U.S. Senate and you work 
with Big Brothers, Big Sisters and the work that you have done 
with a number of different charities, what is your advice to 
Members? Do you suggest they pick a charity or two and do not 
do any publicity about it, or do you suggest they pick 10 and 
try to help all of them?
    How should Members live that example in working with these 
charities?
    Senator Coats. Well, I think the first thing Members can do 
is get outside of these buildings. You do not have to go very 
far. You do not have to climb on an airplane and fly somewhere 
to understand--one, the problem, and two, the solution. Gospel 
Rescue Mission is only five or so blocks away, and on the way, 
you can stop at the Federal homeless center, and you can 
compare the two, the Federal effort versus the private effort. 
That is true for any number of initiatives.
    It is great to have hearings, and it is great to have 
witnesses come in, and it is great to read publications like we 
put out with our Renewal Alliance, but there is nothing that 
can begin to compare with getting out of our comfort zone, out 
of our bubble here on Capitol Hill, and getting out into the 
real world--Southeast Washington, Northeast Washington are not 
that far away--getting into the real world, seeing what the 
real problems are, talking to the people who are in the 
trenches day after day after day, the foot soldiers of hope and 
renewal, and examining what they are doing, looking at their 
programs, measuring their success, and asking how can we help. 
And there are numerous ways that we can do that, whether it is 
getting involved exclusively with one or whether it is trying 
to promote a broader agenda, whether it is personally 
volunteering or simply bringing a colleague by to say, ``You 
know, you ought to look at what is taking place here.''
    That is how ideas begin to ferment and begin to take root, 
and from that, numerous initiatives will come to mind or be 
suggested to us in terms of how we can help. Dr. Eyring has a 
vision in terms of utilization of now unused school properties 
and facilities that can be a central place where a lot of these 
services can be provided, where schools can be established, or 
charter schools can come in and flourish, where you can provide 
these services.
    Because of declining student population, there is a lot of 
infrastructure available in Washington, DC. How can we help in 
terms of transferring that over or making it available?
    Dr. Eyring probably told you about the Fulton House of Hope 
where Gospel Rescue Mission is attempting to develop for women 
the same kinds of programs that they now have for men; right 
around the corner. They were able to acquire that property 
through the Weed and Seed Program, and they went through all 
kinds of bureaucratic hurdles to do that, but that property is 
now theirs and, thanks to some start-up money and some seed 
money, that is going to be developed into a duplicate of what 
is done at Gospel Rescue Mission for men, but for women.
    I only heard about that because I got off the Hill and, in 
trying to investigate how we deal with crack cocaine, visited 
The Haven, which is one of the Gospel Rescue Mission programs. 
It opened my eyes in a way that no hearing, no piece of paper, 
no story in The Washington Post could begin to open my eyes, 
because sitting next to me were some of the most miraculous 
transformations of the human spirit that I had ever witnessed 
in my life, anywhere. And I said to myself if this individual--
when you hear about the background of some of these people, you 
think, there is just no way, there is no way this person that I 
am now talking to could have been that person that they told me 
they used to be--and you say here is something that works, and 
we would be foolish not to try to find out why it works, and 
how can we help it work for others, how can we assist this 
organizations in doing more of what they are doing. That means 
getting off the Hill.
    But when you see that, all kinds of possibilities open up 
in terms of how we can be involved legislatively, through 
holding hearings, through spreading the good news, through 
setting up demonstration programs, through targeting tax 
credits, through helping deal with regulations and bureaucracy 
in order to allow them to do more of what they are doing, to 
help solicit other donors, to help with their fundraisers. 
There are innumerable ways in which they can do it.
    Leave here, and go down and take a look, and I think you 
are planning on doing just that. So that is a must 
recommendation.
    Senator Brownback. Good. Senator, thank you very much for 
your leadership, and I look forward to working with you for 
years to come on many of these issues.
    Senator Coats. Absolutely. Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much.
    Our next panel will include April Lassiter, president of 
The Initiative for Children Foundation, and Joe Loconte, deputy 
editor of Policy Review, The Journal of American Citizenship.
    April, let us start with your testimony.

 TESTIMONY OF APRIL LASSITER,\1\ PRESIDENT, THE INITIATIVE FOR 
                      CHILDREN FOUNDATION

    Ms. Lassiter. Thank you very much for having me speak here 
today. My name is April Lassiter, and I am president of The 
Initiative for Children Foundation. We are a nonprofit 
organization dedicated to ending childhood poverty and despair 
through the research and replication of best practices in the 
private sector.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lassiter appears in the Appendix 
on page 55.
---------------------------------------------------------------------------
    I am also the author of the book, ``Congress and Civil 
Society: How Legislators can Champion Civil Renewal in Their 
Districts,'' which was funded by the Bradley Foundation and 
published by The Heritage Foundation.\2\
---------------------------------------------------------------------------
    \2\ The book referred to above, ``Congress and Civil Society: How 
Legislators can Champion Civil Renewal in Their Districts,'' is 
retained in the files of the Subcommittee.
---------------------------------------------------------------------------
    The book that I worked on, ``Congress and Civil Society,'' 
outlines several ways that Members of Congress can use their 
bully pulpits to renew civil society in America, and I am very 
encouraged to see that you have decided to hold these hearings 
today and that Senator Coats obviously also embraces this 
expanded vision of leadership.
    I am inserting a copy of the book for the record in the 
hope that more Members of Congress will also embrace this 
vigorous civic activism and leadership in their districts and 
States.
    I want to commend Chairman Brownback for holding this 
hearing today and also his staff, for doing such a great job of 
getting a very wonderful panel from the District of Columbia to 
talk about the important work that they do.
    I think the need for public leadership in promoting 
effective compassion for the poor and needy in the District of 
Columbia cannot be overstated. By definition, too many 
legislators have focused on legislative remedies to address 
problems that cannot be addressed by bills or rhetoric that 
emanate from Washington, DC.
    Today's hearing on the role of faith-based charities is an 
excellent example of how public leaders can highlight what is 
working here in the Nation's Capital to reach the poor and the 
needy, and how these successful efforts can then be replicated 
in other places around the country and translated into good 
public policy. We need more hearings like this to hear the 
success stories of civic efforts, faith-based groups and 
corporate programs and policies that are moving the poor and 
the needy toward self-sufficiency.
    The book that I have submitted for the record outlines ways 
in which Members of Congress can use their bully pulpits to 
rebuild the civic infrastructure in America. Every Member of 
Congress, Republican or Democrat, Liberal or Conservative, can 
embrace this vision for leadership and take a proactive role in 
facilitating effective charitable efforts that should be a 
cornerstone of public service.
    Members of Congress, as you know, have extraordinary power 
to recognize and recruit untapped social and financial capital 
to individuals, charitable groups and corporations whose 
efforts are effective.
    To put this hearing in historical context, I would like to 
make a few comments about the state of the nonprofit sector in 
1998. In the early part of this century, the nonprofit sector 
was primarily responsible for serving the poor and the needy. 
As government programs began to take over the role of 
charities, with the institution of the New Deal and again with 
the Great Society programs under President Johnson, the private 
sector increasingly abdicated its charitable role for the poor.
    The unfortunate result has been, as we have heard today, 
that even with the Federal expenditure of $5 trillion in 
welfare services and even with the state of charitable giving 
in the private sector remaining relatively constant, the 
poverty rate for children rose from 14 percent in 1968 to 23 
percent in 1993. In fact, the Great Society programs have 
paralleled startling increases in poverty, family breakdown, 
illegitimacy, and other social ills that directly impact the 
lives of children and their families.
    One social scientist had the foresight to warn against an 
over-reliance on government charities. In 1821, Josiah Quincy, 
chairman of the Massachusetts Committee on Pauper Laws, warned 
that subsidies might fail the poor because they would not help 
the truly needy enough and might discourage industry on the 
part of those who are able to become self-sufficient.
    The failure of government programs to help the poor and the 
needy to become self-sufficient is well-documented. The facts 
bear out that even the most well-intentioned government 
programs cannot serve as surrogates for intact families or 
strong religious and civic institutions.
    I know you will be hearing from Mr. Loconte later about 
effective compassion.
    The welfare reform that the American people embrace, that 
we passed in the 104th Congress, was a new system of personal 
and local civic initiatives that more effectively eradicate 
social ills, not a desire to see compassion played out on a 
human level. In order to address these problems of poverty and 
despair at their root, policymakers must not only devolve 
decisionmaking power and resources to the local level, but they 
should supplement the safety net by becoming part of the 
rebuilding of the civic infrastructure with effective 
empowerment strategies.
    Fortunately, efforts are being made to recognize effective 
empowerment strategies, and I have written about many of them 
in my book. Today's hearing, though, focuses on successful 
faith-based organizations in the District of Columbia. In 
contrast to custodial programs, which simply provide financial 
subsidies to the poor, the effective charitable efforts I have 
studied are often need-based, personal, challenging, possess a 
high degree of accountability for their resources, and track 
their progress on a systematic and regular basis. Faith-based 
efforts also include a spiritual or values-based foundation.
    Some skeptics have cast doubt on faith-based groups because 
of a facile assumption that only experts with degrees and 
letters after their names are qualified to help the poor and 
the needy. My own view is that we should let the record speak 
for itself.
    For instance, some studies show that faith-based groups 
like Victory Fellowship and Teen Challenge are especially 
effective in drug and alcohol rehabilitation, often at a 
fraction of the cost of State programs. Victory Fellowship 
boasts a recovery rate as high as 70 percent for its 
participants. In addition, the National Institute for Drug 
Abuse conducted a government-funded study which showed that 86 
percent of Teen Challenge graduates were drug-free after 7 
years. According to Teen Challenge, many government-funded and 
non-faith-based rehab programs have a success rate under 5 
percent.
    We cannot afford to walk away from faith-based groups that 
are successfully transforming the lives of children and 
families, giving them the direction, hope and accountability 
they need to become productive members of society. We should 
let these groups rest on their successes and encourage their 
replication rather than discouraging them through barriers and 
regulations that the Federal Government or State governments 
impose, or allowing a few skeptics to disqualify them.
    As Members of Congress, you can help recognize the work of 
faith-based groups, and my hope is that you will go back home 
and hold hearings like this in your district and State. We need 
Members of Congress to highlight the work of groups like those 
we have heard from today, and The Fishing School here in 
Northeast Washington, run by ex-cop Tom Lewis, who provides a 
safe haven in a crack-infested neighborhoods, where kids get 
tutoring, mentoring and Bible study.
    We should also replicate civic initiative that have track 
records of success here in the District of Columbia and around 
the country.
    I am submitting several other examples of civic and faith-
based initiatives for the record.
    Finally, Members of Congress should also encourage 
corporate efforts to help the poor and the needy. Many 
businesses have reached into their own pockets and recruited 
support from citizens and private groups to reach out to them. 
It occurred to me listening to the witnesses this morning that 
we should get some of the corporations that reside here in the 
District to adopt these charities and help them negotiate their 
needs.
    I am also submitting several examples of corporations like 
Wendy's, Subway, and Bayer Corporation that have effectively 
reached into their communities.
    Some Members of Congress are already making great strides 
toward encouraging these good efforts. I commend Chairman 
Brownback for his work toward these efforts. You have taken 
your time to travel around the State of Kansas to visit these 
centers of effective compassion, to learn what works and to 
help raise their visibility. I hope that more Members will 
follow your example.
    I believe the future of our country depends on the extent 
to which we take personal responsibility for ourselves, our 
families and our communities. Government is not inherently 
evil; rather, government cannot do the work of strong families, 
civic groups, voluntary associations or corporations who are 
providing family-friendly workplaces.
    What we need today is education on what works. We need 
smarter government, government that operates on sound research 
rather than political fights about who cares more about the 
poor and the needy or about the children. We need, quite 
simply, a spiritual and civic renewal in America. Nothing short 
of this will address the challenges that children and families 
face today.
    This is the work to which The Initiative for Children 
Foundation has dedicated itself--identifying and promoting the 
replication of best practices on critical children's issues.
    The need for public leadership is nowhere more evidence 
than in our Nation's Capital, the center of power of the free 
world, and yet a prison of poverty and despair for so many 
children and families. I truly believe that by building these 
private efforts, these faith-based groups and civic groups, we 
will not only sharpen the way the public, the media and 
policymakers evaluate compassion in America, but also improve 
the welfare of American children and families.
    I thank you again, Mr. Chairman, for inviting me to speak 
today, and I want to commend you for your work on these 
efforts.
    Senator Brownback. Thank you very much for being here, Ms. 
Lassiter, for your book, and for your encouragement and your 
identification of what Members can do, which I think is 
something that is important for us to talk about, what each of 
us can reach and do ourselves, and your book was very good 
about doing that.
    Ms. Lassiter. Thank you.
    Senator Brownback. Mr. Loconte, thank you for joining us 
today, and the floor is yours.

   TESTIMONY OF JOE LOCONTE,\1\ DEPUTY EDITOR, POLICY REVIEW 
               MAGAZINE, THE HERITAGE FOUNDATION

    Mr. Loconte. Thank you, Senator. I want to thank the 
Senator for his leadership on this issue of the role of the 
faith community in addressing Washington's social problems.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Loconte appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    I am Joe Loconte, with Policy Review Magazine, published by 
The Heritage Foundation. I also authored a book called 
``Seducing the Samaritan: How Government Contracts are 
Reshaping Social Services.'' \2\
---------------------------------------------------------------------------
    \2\ The book referred to above, ``Seducing the Samaritan: How 
Government Contracts are Reshaping Social Services,'' is retained in 
the files of the Subcommittee.
---------------------------------------------------------------------------
    I think perhaps the most important message of today's 
hearing is that here in Washington, in the shadow of the failed 
Federal welfare bureaucracy, are private charities pointing the 
way toward personal transformation and urban renewal--right 
here in the belly of the beast.
    The groups that have testified today are indeed a rebuke to 
the liberal government approach to combating social ills. I do 
not intend that as a partisan statement. They really are a 
rebuke. Unlike most Federal programs, these charities deal in 
what author Marvin O'Lasky calls ``effective compassion, 
compassion that is personal, challenging and spiritual.''
    They personalize care by treating the whole person, each 
with a distinct set of strengths and weaknesses, rather than 
forcing people into one-size-fits-all programs, and we heard 
some compelling testimony to that effect. They are challenging 
in the sense that they summon people to virtue, not to vice, 
and they are spiritual in that they emphasize the religious 
dimension to life, the idea that men and women are made in 
God's image, and that their deepest needs are bound up in their 
relationship with their creator.
    Last year, a White House aide told The New Yorker 
Magazine--not a bastion of conservative thought--``I do not 
know if we have reached this point because these programs have 
succeeded or because everything else has failed, but this 
certainly seems to be the hot social policy topic these days.''
    The aide almost got it right--it is for both reasons. The 
success of these and other charities is not only getting more 
media and political attention, it is creating healthy 
partnerships with government agencies, which is encouraging. 
But it is also lending weight to the idea in some places that 
government should bankroll these charities, which ought to make 
us tremble--and here, I am not talking about tax credits, which 
I think really have value and merit, but rather, direct 
government funding through contracts and other forms of direct 
funding, the way government has done social service provision 
over the last 25 years.
    So with the remainder of my time, I want to issue a warning 
to private charities that might consider drinking deeply at the 
government well in order to expand their programs.
    In the book that I wrote, Seducing the Samaritan, I talked 
to people in the trenches of social outreach, leaders from 
about two dozen or so human service agencies, most of them 
heavily dependent on government grants and contracts. Charity 
leaders, I found, when they are candid, admit that their 
dependence on the State makes for an unhealthy relationship. 
Government support easily leads to government intrusion and, 
ultimately, coercion.
    My research suggests that given the chance, government will 
remake providers in its own bureaucratic image, and I am just 
going to talk about two ways in which this happens.
    First, government funding causes what you might call 
``organizational mission creep.'' This, of course, was the 
phrase used to describe the shift in U.S. objectives of the 
Marines in Somalia. For private agencies on the public dole, it 
means bending their agendas to secure State and Federal 
contracts.
    ``It becomes almost like heroin,'' says a nonprofit 
veteran, Ed Gotgart. ``You build your program around this 
assumption that you cannot survive without government money.''
    The problem with mission creep is that it allows distant 
politicians and government bureaucrats, rather than the front-
line workers, to define an agency's objective.
    ``Most everyone is fighting for every penny they can get,'' 
says Jacquelin Triston of the Salvation Army. ``If you cannot 
do it the way you want, then you will take your program and fit 
it into what government will give you money for,'' she told me.
    The second point--government support focuses on delivering 
services and not results. Every year, for example, States pump 
millions of dollars into substance abuse programs, with little 
idea of whether they are curing or perpetuating addiction. 
Although the Massachusetts Bureau of Substance Abuse employs a 
staff of 40 just to manage the social service contracts, no 
one, not a single person, evaluates program effectiveness or, 
as the Bureau's program manager put it to me: ``We do not do 
longitudinal outcome studies.'' The result is a system that too 
often dispenses assistance with no strings attached, that is, 
without discernment.
    Boston's Pine Street Inn, for example, provides food and 
housing to nearly 1,000 homeless people each day, but the 
shelter, mostly dependent on HUD grants, places no work or 
education requirements on its residents. Even the ``no 
drinking'' rule is somewhat qualified. Some residents walk a 
few yards from the shelter to a ``wet park''--a place where 
they can drink alcohol unmolested all day long--and return in 
the evening, no questions asked.
    Beth Kidd believes that that is the wrong way to offer 
help. A 25-year veteran in neighborhood nursing, Kidd runs a 
small, privately-funded, Christian-based shelter in the heart 
of Boston. This is what she told me: ``People who are substance 
abusers who have been out on the street for years, they have 
learned how to survive. What they have learned from the system 
is they can make the social worker jump. And what they need is 
moral and spiritual challenge, not milktoast charity.''
    This is the kind of assistance that faith-based providers 
offer--compassion that is both tough-minded and tender-hearted. 
Compassion that suffers with is compassion that is personal, 
challenging and spiritual. But government compassion, as Martin 
O'Lasky puts it, ``It is too cheap. It is bureaucratic and 
impersonal. It refuses to challenge or engage the needy in the 
moral issues that envelope their lives. It ignores ultimate 
outcomes in people's lives, and it often drives religious 
expression underground.''
    Sociologist Peter Berger of Boston University warns of the 
compromising embrace of the modern secular State. ``He who 
dines with the devil,'' he says, ``had better have a long 
spoon.''
    If charities serving the needy in our communities are to 
continue to be effective in lifting the poor out of poverty, 
they should work collaboratively with government; but when it 
comes to government funding and oversight, they will need 
longer, not shorter, spoons.
    Thank you, sir, for your time.
    Senator Brownback. Mr. Loconte, do you have specific 
recommendations of what you are speaking about, because what 
you say makes some sense to me. Even on my charity tour that I 
went on and some of the charities that I have visited with, as 
we are going into this phase where the government is not going 
to deliver the service, but the government is going to fund the 
service and then have a private, not-for-profit actually 
deliver the service, you could see people becoming excited 
about this huge pool of resources that they were getting. They 
had not fathomed this much money ever coming to their not-for-
profit organization. But you could also see that the ``golden 
rule'' could well come into play--he who controls the gold 
rules--that there would be that change.
    Do you see thing that we can require or change within 
government that would not cause these charities to lose their 
primary mission along with taking the government funds?
    Mr. Loconte. I make some recommendations in my book which I 
will enter in the record, and I will bring that in.
    It is interesting--I had a conversation with the No. 2 or 3 
person in Catholic Charities in Boston, Joseph Doolin, of the 
Archdiocese in Boston. Catholic Charities probably gets 65 
percent or so of its money from government contracts. And 
Joseph Doolin told me that any relationship ultimately seems to 
become a dominant relationship with government--and they are 
very pro, of course, government funding. But his confession was 
that any relationship will ultimately become a dominant 
relationship.
    Some of the things that Senator Coats has initiated make a 
lot of sense to me. I think the problem is that the more direct 
the relationship is between government and the providers, the 
more dangerous it is, the more direct the funding is and the 
regulatory oversight is. So I think you have to take the 
problem as kind of two sides of the same coin. You have got to 
deal with the government purse, and you have got to deal with 
the government pen, or the regulatory problem.
    Part of the way you deal with the regulatory problem, I 
think, is you figure out what sort of oversight can be 
delegated to nongovernmental private agencies--whether this is 
in the foster care system or other types of social services, I 
think there are ways in which we can fairly and reasonably and 
responsibly delegate some of those responsibilities for 
oversight to nongovernmental institutions. We need to figure 
out ways to do more of that.
    On the funding end, the most indirect way of getting more 
public resources into the hands of private charities is going 
to be the smartest. So whether it is a charity tax credit or 
something like a charity tax credit, that makes the most sense 
to me. The more direct that assistance is, the more likely, of 
course--and there is a responsibility on the part of lawmakers 
to track that money, to see how it is spent, to require the 
sort of documentation that goes on so that they can be 
responsible to their voters, to their constituents, that their 
money is being spent wisely.
    It is the nature, of course, of government funding--it 
inherently requires oversight. So the more indirect we make 
that funding, the better we are going to be.
    Senator Brownback. The credits within the tax form would 
seem to be the purest, cleanest shot, as you noted. Do you see 
individual steps or other steps that are like that one that 
would make for a good indirect funding route versus what I am 
seeing develop, which is a lot of governmental agencies funding 
private groups to do what the government used to do and then 
saying, ``OK, but you are going to have to do it this way,'' 
similar in many respects to how we treat a lot of State 
governments--we have this money for you, but to get this money, 
you have got to jump through these five hoops and do it the way 
we want you to do it, and then we will give you the money, 
which then dictates how it is done.
    Do you see other indirect means that government can deliver 
the funds, other than the tax credit?
    Mr. Loconte. I have not heard better scenarios than that 
one. That is the kind of thing you like to see for some set 
period of time.
    The other sort of arrangements that you are to direct--you 
could perhaps sanction for a very limited time--some sort of 
grants that phase out over a period--but then you just raise 
the same political risk that once you establish a program, you 
have a natural constituency, and it goes on forever and ever, 
as you know.
    I have not heard a better alternative, though, than the tax 
credit.
    Senator Brownback. Ms. Lassiter, as far as what you have 
suggested, can you think of anything else Members should be 
doing to educate the public about what works? You mentioned 
holding hearings in individual Members' districts. What else 
have you seen as being particularly effective in raising the 
visibility and the information that people have about these 
private, effective charitable works?
    Ms. Lassiter. I think the first thing that needs to happen 
is that Members of Congress need to develop a more critical 
protocol for deciding which kinds of groups they promote. As 
Mr. Loconte has mentioned, we have no longitudinal outcomes 
studies, and one thing that policymakers can do here on the 
Hill is to begin to critically evaluate the efficacy of 
programs, both public and private, to see what is working.
    Once you identify those programs, I have seen a lot of 
innovative strategies for raising the visibility of these 
effective groups. Site visits, as Senator Coats mentioned--and 
you have also made site visits to these groups--raises their 
visibility, and it also allows these charities to bend your ear 
about what their needs are, and you can find out how you might 
be able to, as a public leader, recruit social or financial 
capital that they might need, or be a part of problem-solving.
    Some Members hold awards ceremonies in their districts 
where they have their staff and other people in the district 
nominate heroes, everyday people who have overcome great odds 
or are doing a lot with little resources, and that has served 
to recognize many of these groups.
    A couple of very impressive effort that I have seen were by 
Senator Santorum and Representative Talent. They have actually 
restructured their district offices to make them in effect 
centers of charitable activity. They have set up a system by 
which, when constituents call in for help, they are actually 
referred back to a private organization in the district that 
can meet their needs.
    Traditionally, as you know, and when I worked on the Hill, 
what I saw, is that most Members refer their constituents to 
government agencies or reference legislation, so it is a much 
more proactive role in solving problems on the local level.
    Another very interesting example is that Representative 
Pitts created last fall something called the Hope Summit, where 
he gathered approximately 200 nonprofit organizations in his 
area to hear panels on everything from fundraising to 
evaluating outcomes, and their groups also allowed them a 
chance to network with leaders in the community and talk to 
other people to hear about how they were negotiating their way 
to becoming effective charities.
    Finally, there have been some coalitions on the Hill, 
including the Renewal Alliance which we have already heard 
about today, just doing the good work of removing regulations 
and barriers that exist on a Federal level, as well as 
providing tax incentives.
    There have also been two efforts on the part of Members, 
and I think you have also been involved with this, Mr. 
Chairman. The House that Congress Built was a partnership 
between Members of Congress and Habitat for Humanity. Several 
Members gathered last June to build a house here in the 
District and took that back home and replicated it in their 
districts.
    In addition, the National Fatherhood Initiative has worked 
with Members of Congress to create the National Fatherhood 
Promotion Task Force, and they have done a wonderful job of 
raising the visibility of the problem of fatherlessness in the 
home. We really are raising a generation home alone, as 50 
percent of children are growing up in broken families. On June 
15, the National Fatherhood Promotion Task Force will join the 
National Fatherhood Initiative to put on a forum to further 
raise the visibility of, I think, probably the most threatening 
issue to children today.
    Senator Brownback. Those are great suggestions. I am 
writing them down.
    Ms. Lassiter. If I could, I would have two other 
suggestions on regulations and barriers that have begun to be 
addressed but need some more leadership in Congress. One is 
prohibition on voluntarism. As you may know, the Federal Labor 
Standards Act prevents fire-fighters from volunteering in the 
communities where they work, for fear that they may in some way 
be coerced into working overtime. In fact, what this does is 
keep some of the best people we have protecting us from fires 
and other disasters from being able to apply their resources 
and talents in a charitable way.
    There has been some legislation introduced by 
Representatives Bateman and Myrick and Senator Warner, but I 
think that is an issue that deserves a lot of attention.
    The other issue that has not been addressed legislatively 
was brought to my attention by Dick Drake, who is director of 
Good Samaritan Helping Hand. That issue is that the IRS has 
ruled that charitable organizations which require work for 
charitable services must provide benefits for those people just 
as if they were employees. In other words, the IRS has said 
that if you require work in return for charity, they deem that 
relationship between the charity and the recipient an employer-
employee relationship, which is unfortunately preventing some 
charities, which believe that some of the good work they do is 
governed by the requirement of requiring something in return 
for charity, from being able to do more of that work. That is 
something that I think might be a good legislative issue.
    Senator Brownback. Those are good suggestions and good 
examples.
    I thank both of you for coming today and being part of this 
panel and also for giving us the specific suggestions that you 
have. Those will be very useful for us.
    I will note that the record will remain open for 3 days if 
people have additional testimony or inserts that they would 
like to put into the record.
    With that, the hearing is adjourned.
    [Whereupon, at 5:10 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


 PREPARED STATEMENT OF HON. KAY GRANGER, A REPRESENTATIVE IN CONGRESS 
                        FROM THE STATE OF TEXAS
    Thank you very much, Chairman Brownback. It is my great privilege 
to speak out on behalf of private solutions to public problems. I have 
always believed that America is a place where every day ordinary people 
do extraordinary things.
    Americans know that serving their brothers and sisters is an 
invaluable effort that cannot be measured in dollars and cents, in 
hours volunteered, or even in new programs started. But it can be 
measured in lives changed, commitment begun, and hope given.
    America is a great Nation filled with good people--people who 
understand the importance of doing well by doing good. There are many 
troubling problems facing our Nation. And at the core of these problems 
is the decline of our families. I believe the most endangered species 
in America today is the family.
    If anyone still has doubts, consider this: One out of every two 
marriages ends in divorce. Two thirds of all African-American children 
are raised in a single parent home. And perhaps most troubling, in the 
past 4 years, teenage drug use has more than doubled. There is not a 
family I know that has not been touched by troubled times. There's no 
doubt--we live in times of need. Yes, we live in a world of hurt. But I 
don't believe that the crisis of modern American society is 
insurmountable. And I don't believe our tools to combat this decline 
are insignificant. On the contrary, I believe our Nation is facing a 
challenge, not a crisis. And America has always responded to 
challenges.
    The problems facing our Nation will not go away in days, weeks, or 
years. But they will go away, if we all work together as families, 
neighborhoods, and communities, in the spirit of citizenship--in the 
spirit of America.
    I want to spend the next few moments outlining for you what I 
believe to be the keys to restoring our communities and our families. 
We can see some of these tools in some very encouraging statistics:
    More than 90 million Americans spend some amount of time 
volunteering for some organization each year. Volunteering is 
important. Churches are reporting high attendance and increased 
contributions and tithes. Churches are important. And each year we see 
the establishment of new community foundations, women's shelters, and 
food pantries. Charity and faith-based institutions are important.
    Volunteerism is becoming more than just a catchy cliche--it is 
literally an American tradition we are determined to protect. Let me 
give you some examples from my hometown. In Fort Worth, Texas, Trinity 
Valley School has started requiring each one of their students to 
complete volunteer work as well as course work. And in so doing, this 
outstanding school is proving that education should be about more than 
just learning to how to make money someday. It should also be about 
learning how to live with other human beings.
    When I was mayor of Fort Worth, we began a program called ``Our 
City Our Children.'' This program was designed to involve the entire 
community in the lives of our children. ``Our City Our Children'' 
encouraged businesses to donate computers for classrooms and 
businessmen to donate their time to Little League. This program 
provided private solutions to the very public problem of helping at-
risk children.
    These examples demonstrate that America is special not because we 
have big government but rather because we have great people. Too often 
we look to Washington for help. Too seldom do we look to help 
ourselves. The American people have the ability and the faith to make 
our Nation safer and stronger, healthier and happier. If only we give 
Americans the freedom to renew America. By working together, we can 
save our Nation--one community at a time, one family at a time, and one 
child at a time. Thank you very much.
[GRAPHIC] [TIFF OMITTED] TH599.001

[GRAPHIC] [TIFF OMITTED] TH599.002

[GRAPHIC] [TIFF OMITTED] TH599.003

[GRAPHIC] [TIFF OMITTED] TH599.004

[GRAPHIC] [TIFF OMITTED] TH599.005

[GRAPHIC] [TIFF OMITTED] TH599.006

[GRAPHIC] [TIFF OMITTED] TH599.007

[GRAPHIC] [TIFF OMITTED] TH599.008

[GRAPHIC] [TIFF OMITTED] TH599.009

[GRAPHIC] [TIFF OMITTED] TH599.010

[GRAPHIC] [TIFF OMITTED] TH599.011

[GRAPHIC] [TIFF OMITTED] TH599.012

[GRAPHIC] [TIFF OMITTED] TH599.013

[GRAPHIC] [TIFF OMITTED] TH599.014

[GRAPHIC] [TIFF OMITTED] TH599.015

[GRAPHIC] [TIFF OMITTED] TH599.016

[GRAPHIC] [TIFF OMITTED] TH599.017

[GRAPHIC] [TIFF OMITTED] TH599.018

[GRAPHIC] [TIFF OMITTED] TH599.019

[GRAPHIC] [TIFF OMITTED] TH599.020

[GRAPHIC] [TIFF OMITTED] TH599.021

[GRAPHIC] [TIFF OMITTED] TH599.022

[GRAPHIC] [TIFF OMITTED] TH599.023

[GRAPHIC] [TIFF OMITTED] TH599.024

[GRAPHIC] [TIFF OMITTED] TH599.025

[GRAPHIC] [TIFF OMITTED] TH599.026

[GRAPHIC] [TIFF OMITTED] TH599.027

[GRAPHIC] [TIFF OMITTED] TH599.028

[GRAPHIC] [TIFF OMITTED] TH599.029

[GRAPHIC] [TIFF OMITTED] TH599.030

[GRAPHIC] [TIFF OMITTED] TH599.031

[GRAPHIC] [TIFF OMITTED] TH599.032

[GRAPHIC] [TIFF OMITTED] TH599.033

[GRAPHIC] [TIFF OMITTED] TH599.034

[GRAPHIC] [TIFF OMITTED] TH599.035

[GRAPHIC] [TIFF OMITTED] TH599.036

[GRAPHIC] [TIFF OMITTED] TH599.037

[GRAPHIC] [TIFF OMITTED] TH599.038

[GRAPHIC] [TIFF OMITTED] TH599.039

[GRAPHIC] [TIFF OMITTED] TH599.040


                                 <all>
</pre></body></html>
